No.

Supreme Court, U.S.
FILED

Po-70

IN THE
SUPREME COURT OF UNITED STATES
JAGAN MAHADEVAN,
Petitioner,
v.

PREM BIKKINA,
Respondent.
On Petition for Writ of Certiorari to the
Supreme Court of California
PETITION FOR WRIT OF CERTIORARI
JAGAN MAHADEVAN,
3419 Autumn Bend Dr
Sugar Land, TX 77479
Tel: (832) 6394456
Jmdept517@gmail.com
Petitioner, In Pro Per

JUL 2 1 2020
j

OFFICE OF THE CLERK

QUESTIONS PRESENTED
Petitioner reported scientific research misconduct in
climate change mitigation research to the federally
funded Lawrence Berkeley National Laboratories
(LBNL) under federal regulation 48 C.F.R. §952.23571 to initiate an investigation. In response,
Respondent, who conducted research at LBNL, filed
state court lawsuit for defamation, intentional
infliction of emotion distress (IIED) and negligence
and obtained a large judgment after trial.
Petitioner’s statements were based on
uncontroverted
scientific
facts
proving
contamination in Respondent’s data that was used
by LBNL scientists leading to inaccurate results.
Petitioner’s complaint, which was neither inquired
into nor investigated, satisfied the requirements of
the federal regulation to implicate research
misconduct by preponderance of the evidence. But
state law demanded substantial truth.
The questions presented are:
1. Whether federal statutory and regulatory
scheme, for research misconduct, displaced
state law from subject matter jurisdiction on
defamation claims arising from complaint
made under that regulation, and
2. Whether First Amendment, applicable to the
states through the Fourteenth Amendment,
protects the complainant of research
misconduct when he outlines the factual and
scientific basis of his conclusions constituting
an opinion on a subject of public concern.
l

PARTIES TO THE PROCEEDING
Petitioner, Appellant-Defendant below, isJagan Mahadevan.
Respondent, Appellee-Plaintiff below, is: Prem
Bikkina.

11

RULE 29.6 STATEMENT
Petitioner, Jagan Mahadevan is not a business
organization but rather a natural individual.

t

in

RELATED PROCEEDINGS

Court of Appeals, First District Division Four,
California, Bikkina v. Mahadevan, Unpublished
Opinion rendered January 14, 2020 and Modified
February 11, 2020.
Superior Court of California, Alameda County, No.
RG14717654, Bikkina v. Mahadevan, Order denying
Motion to Vacate entered January 8, 2019.
Court of Appeals, First District Division Four,
California, Bikkina v. Mahadevan, Published
Opinion rendered October 15, 2015.'
Superior Court of California, Alameda County, No.
RG14717654, Bikkina v. Mahadevan, Order denying
Motion to Strike entered September 4, 2014.
Supreme Court of California, No. S260776, Bikkina
v. Mahadevan, Petition for Review Denied, March
11, 2020.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED................................

1

PARTIES TO THE PROCEEDING....................

li

RULE 29.6 STATEMENT....................................

in

RELATED PROCEEDINGS................................

IV

TABLE OF AUTHORITIES................................

vm

PETITION FOR WRIT OF CERTIORARI.........

1

OPINIONS BELOW.............................................

1

BASIS FOR JURISDICTION IN THIS COURT...... 2
CONSTITUTIONAL AND STATUTORY
PROVISION AT ISSUE..........................

2

STATEMENT OF THE CASE..............................

5

A.
B.
C.

PETITIONERS ANTISLAPP MOTION
AND DISPOSITION................................

9

PROCESS OF TRIAL AND SUBJECT
MATTER JURISDICTION...................

11

COURT OF APPEAL OPINION AND
CALIFORNIA SUPREME COURT
PETITION FOR REVIEW..................

16

REASONS THE PETITION SHOULD BE
GRANTED..............................................
A.
B.

FEDERAL LAW PREEMPTED STATE
COURT....................................................
STATE COURT CHILLS FREE SPEECH
v

17
19

AND CONFLICTS WITH FEDERAL
COURTS............... ...............................

C.

.....26

I.

Scientific Research Misconduct is of
Public Interest and Resolve Conflict:
State and Federal Courts Conflict......26

II.

State Court Violates Article IV, by
Rejecting Petitioner’s Immunities, and
Flouts This Courts Holding in
34
Awarding Tort Damages.

COURT OF APPEAL HOLDING ON
MINISTERIAL ACTION EXCEPTION TO
DENY PETITIONERS APPEAL
CONFLICTS WITH FEDERAL COURTS
AND DENIES DUE PROCESS.................. 36

CONCLUSION

38

APPENDIX A.
Decision of Court of Appeal First District
Fourth Division, California affirming trial
court order............. .......... ........................... . la
APPENDIX B.
Decision of Superior Court of California,
Alameda County denying Petitioner’s motion
to vacate.
18a
APPENDIX C.
Decision of Court of Appeal First District
Fourth Division, California affirming trial
court order denying Petitioner’s anti'SLAPP
motion.
20a
vi

APPENDIX D.
Decision of Superior Court of California,
Alameda County denying Petitioner’s antiSLAPP motion
46a
APPENDIX E.
Decision of Supreme Court of California
denying petition for review.
48a

Vll

TABLE OF AUTHORITIES
Cases
An versa v. Partners Healthcare System, Inc.,
20, 22, 24
835 F.3d 167 (1st Cir. 2016)
Arroyo v. Rosen,
102 Md. App. 101 (Md. Ct. of App. 1994)

32

Bikkina v. Mahadevan,
241 Cal. App. 4th 70 (2014)......................

10

Bose Corp. v. Consumers Union of United States,
Inc.,
466 U.S. 485 (1984).................................................. 31
Buckley v. Fitzsimmons,
20 F.3d 789 (7th Cir. 1994)

21

Carroll v. Lanza,
349 U.S. 408 (1955)

35

Chandok v. Klessig,
632 F.3d 803 (2011)

30

Chapin v. Knight-Ridder, Inc.,
993 F.2d 1087 (4th cir. 1993)

28

Competitive Enterprise Institute v. Mann,
150 A.3d 1213 (DC. Ct. of App. 2016)......

32

Dilworth v. Dudley,
75 F.3d 307 (7th cir. 1996)

29

vm

Empire Healthchoice Assur., Inc. v. McVeigh,
547 U.S. 677 (2006)........................................

23

FilmOn.com Inc. v. DoubleVerify Inc.,
7 Cal. 5th 133 (Cal. Sup. Court 2019)

10

Franchise Tax Bd. Of Cal. v. Construction Laborers
Vacation Trust for Southern Cal,
463 U.S. 1 (1983)
23
Franchise Tax Bd. of Cal. v. Hyatt,
538 U.S. 488 (2003)......................

35

Grable & Sons Metal Prod., Inc. v. Darue Eng’g &
Mfg,
545 U.S. 308 (2005)............................................... 23
Gunn v. Minton,
568 U.S. 251 (2013)

23

Hustler Magazine, Inc. v. Falwell,
485 U.S. 46 (1988)......................

34, 39

In re Gruntz,
202 F.3d 1074 (9th Cir. 2000)

37

In re Schwartz,
954 F.2d.569 (9th Cir. 1992)

37

In re Soares,
107 F.3d 969 (1st Cir. 1997)

37

Lane v. Brown,
372 U.S. 477 (1963)

36

IX

Lott v. Levitt,
556 F.3d 564 (7th Cir. 2009)

29

Maritime Elec. Co., Inc. v. United Jersey Bank,
959 F.2d 1194 (3d Cir. 1991)..............................

37

Mauvais-Jarvis v. Wong,
987 NE 2d 864 (Ill. Ct. of App. 2013)

32

Medici v. Lifespan Corp.,
239 F.Supp.3d 355 (D. Mass. 2017)..

20

Metabolife Intern., Inc. v. Wornick,
264 F.3d 832 (9‘h Cir. 2001)...............

31

Milkovich v. Lorain Journal Co.,
497 U.S. 1 (1990)........................

27, 31

New York Times Co. v. Sullivan,
376 U.S. 254 (1964)...................

passim

Ony, Inc. v. Cornerstone Therapeutics, Inc.,
720 F.3d 490 (2d Cir. 2013)............ .............

27

Pennzoil Co. v. Texaco Inc.
481 U.S. 1 (1987).............

36

Phantom Touring, Inc. v. Affiliated Publications,
953 F.2d 724 (1st Cir. 1992)..................................

28

Phillips Petroleum Co. v. Shutts,
472 U.S. 797 (1985)...................

35

Ritchie v. Williams,
395 F.3d 283 (6*h Cir. 2005)

23

x

Sarkar v. Doe,
897 NW 2d 207 (Mich. Ct. of App. 2016)

32

Schneidewind v. ANR Pipeline Co.,
485 U.S. 293 (1988)....................................

22

Singleton v. Wulff,
428 U.S. 106 (1976)

2

Sinochem Intern, v. Malaysia Intern. Shipping,
549 U.S. 422 (2007)...............................................

24

Thunder Basin Coal Co. v. Reich,
510 U.S. 200 (1994)....................

25

Underwager v. Salter,
22 F.3d 730 (7th Cir. 1994)

21, 22, 27, 29

Constitutional Provisions
United States Constitution
•Amendment I....................

passim

United States Constitution
Amendment XIV...............

passim

United States Constitution
ArticleI IV............................

4, 35

Statutes
United States Code
11U.S.C. §362....

37

United States Code
17U.S.C. §101....

3, 23, 28

xi

United States Code
28 U.S.C. §1257...

2

United States Code
28 U.S.C. §1331...

4, 23

Regulations
10 C.F.R. §733

4

48 C.F.R. §952.235-71

passim

xu

PETITION FOR WRIT OF CERTIORARI
Petitioner Jagan Mahadevan respectfully
requests that this Court reverse the ruling of
California Court of Appeals First District Fourth
Division, and the denial by California Supreme
Court, and order the Superior Court of California in
Alameda County to grant Petitioner’s motion to
vacate.
OPINIONS BELOW
Petitioner filed a motion to vacate stipulation,
judgment and amended judgment entered after trial
of Petitioner’s allegations of scientific research
misconduct under the state intentional tort laws. In
the motion, Petitioner raised the issue of lack of
fundamental subject matter jurisdiction due to
federal preemption of state laws as a primary
threshold and due to Petitioner’s immunity from
lawsuit granted by Oklahoma workers compensation
laws as a secondary threshold.
In addition, Petitioner raised the issue of
denial of his right to appeal the merits of the
judgment without notice and consent thereby
denying Due Process of law. The motion was denied
(See 18a). A timely appeal from that decision was
denied by the Court of Appeal in an unpublished
opinion and later modified after rehearing petition
(See la). Petitioner’s review petition to the
California Supreme Court was denied without
further explanation (See 48a).
At the start of the litigation, Petitioner raised
First Amendment defense in a motion to strike
1

which was denied (See 46a). An appeal from that
denial was also denied. The Court of Appeal of First
District Fourth Division issued a published opinion
that forms the law of this case (See 20a). This
published opinion further shaped the outcome at
trial when trial court denied recognition of public
interest basis for further denying First Amendment
rights at trial also.
BASIS FOR JURISDICTION IN THIS COURT
This Court has jurisdiction under 28 U.S.C.
§1257, as the issues presented have been decided in
the highest court of the state. This Court issued an
order on March 19, 2020 that extended the filing
timelines to 150 days from the lower court order
denying discretionary review. Therefore this petition
is timely.
CONSTITUTIONAL AND STATUTORY
PROVISION AT ISSUE
Petitioner appeals to the discretionary powers
of this Court to decide the issue of denial of
Petitioner’s First Amendment rights in conjunction
with the other federal regulatory and statutory
issues raised herein (See Singleton v. Wulff, 428 U.S.
106, 121 (1976), “The matter of what questions may
be taken up and resolved for the first time on appeal
is one left primarily to the discretion of the courts of
appeals, to be exercised on the facts of individual
cases. We announce no general rule.”). Respondent is
not prejudiced by the Court’s consideration of
Petitioner’s First Amendment rights as he has had
the opportunity to fully litigate the issues and offer
2

all the evidence possible in this case which has
already gone through a full trial. Fourteenth
Amendment provisions of Equal Protection and Due
Process are implicated in this case where Petitioner’s
First Amendment right to free speech and right to
petition were denied.
Federal laws of copyright and the federal
regulatory scheme on scientific research misconduct
governed the ultimate issues of the case of
plagiarism, falsification and fabrication in the
published scientific articles. The federal statutory
provision at issue is the element of “plagiarism” or
copyright infringement falling within both the
federal copyright laws of 17 U.S.C. §101 et seq. and
the federal regulatory provisions for research
misconduct.
The federal regulatory provision at issue,
which Petitioner contends displaced state law, is 48
C.F.R. §952.235-71. 48 C.F.R. §952.235-71 was
developed following the federal research misconduct
policy that defines research misconduct regulation as
applied to LBNL where Respondent conducted
research. The federal research misconduct policy was
issued in 2000 by the Office of Science and
Technology Policy (OSTP) which is a creation of an
Act of Congress (National Science and Technology
Policy, Organization, and Priorities Act of 1976).1

i
According to the federal research misconduct policy,
research misconduct is defined as fabrication, falsification, or
plagiarism in proposing, performing, or reviewing research, or
in reporting research results. A). Fabrication is making up data
or results and recording or reporting them; B). Falsification is
manipulating research materials, equipment, or processes, or
(Footnote continues on next page)

3

This policy serves as the umbrella policy for all
federal agencies involved in funding research
including the Department of Energy (DOE) which is
regulated under 10 C.F.R. 733. LBNL is a contractor
of the DOE and therefore is governed by the same
federal regulatory scheme.
In addition to the federal regulatory and
statutory scheme, that displaced the state law, state
law tort was further displaced by the Oklahoma
workers compensation laws which barred the suit
filed by Respondent in California. The California
trial court’s rejection of Full Faith and Credit to
Oklahoma public laws under Article IV §1 and §2
implicated Fourteenth Amendment.
Further implicating the Due Process and the
Equal Protection clauses of the Fourteenth
Amendment is the deprivation of Plaintiffs right to
appeal the merits of the judgment without notice or
consent.
28 U.S.C. §1331 authorizes the United States
federal courts to hear "all civil actions arising under
the Constitution, laws, or treaties of the United
States."

changing or omitting data or results such that the research is
not accurately represented in the research record. C).
Plagiarism is the appropriation of another person’s ideas,
processes, results, or words without giving appropriate
credit!..]. Federal Register^ December 6, 2000 (Volume 65,
Number 235), pages 76260-76264, available online at
https V/www.govinfo. gov/content/pkg/FR-2000-12-06/pdf/0030852.pdf accessed on 4/18/2020.

4

STATEMENT OF THE CASE
Petitioner is a scientist and a former
professor. Petitioner is well recognized as a
researcher in the subject of gas injection in porous
media in application to geologic carbon dioxide
sequestration. Geologic carbon dioxide sequestration
is a technique involving injection of gas for safely
storing very large quantities of carbon dioxide
beneath the surface of Earth in porous rock
formations.
Respondent conducted research at Lawrence
Berkeley National Laboratories (LBNL) in the Earth
and Environmental Sciences Division on the subject
of geologic carbon dioxide sequestration to mitigate
climate. Respondent published contaminated data in
a climate change mitigation research journal called
the International Journal of Greenhouse Gas Control
without admitting it.
Respondent asserted in the publication that
his data implicated the safety of entire populations
of people, flora and fauna above on the surface of
Earth when carbon dioxide is stored below.2 Within
2

See Bikkina, P.K., 2011. Contact angle measurements
of C02—water-quartz/calcite systems in the perspective of
carbon sequestration, International Journal of Greenhouse Gas
Control, 5, 1259-1271. This paper and dates of pubhcation can
from
be
accessed
online
http V/www .sciencedirect.com/science/article/pii/S 175058361100
1241. Respondent refers to “safety” issues many times
including the abstract. “This important [data] has serious
implications towards the design and safety issues, as a
permanent [s]hift indicates lower [carbon dioxide] retention
capabilities of sequestration site[s].”

5

two years of the publication of the contaminated
data, half a dozen new scientific peer articles
appeared in the scientific literature across the world,
stating that Respondent’s research was nonreproducible in their labs.
Respondent was made aware, before the
publication, by both Petitioner and another scientist,
Dr. Winton Cornell, who carried out tests on
Respondent’s samples, that laboratory analytical
tests on those samples revealed very high levels of
contamination and that his data were false.3
Other LBNL scientists used Respondent’s
contaminated data in their research program for
making computer calculations of the fate of millions
of tons of carbon dioxide that was to be injected in
underground formations in field sites in densely
populated areas of New York, New Jersey and
Mississippi. The calculations were not mere citations
but actual use of inaccurate data as Respondent’s
contaminated results were used in mathematical
models leading to a physical mistake in the
calculations as differentiated from statistical error.4
3

Respondent previously worked at University of Tulsa
(TU) situated in Oklahoma where the contaminated data
originated. Petitioner had personal knowledge of the
contamination as Respondent worked under the supervision of
Petitioner at TU. The key witness, Dr. Winton Cornell, was a
faculty member at TU.
4

The LBNL results impheating public safety arising
from Respondent’s contaminated data appeared in government
website OSTI.gov. See https://www.osti.gov/biblio/1368193characterization-triassic-newark-basin-new-york-new-jerseygeologic-stor age -carbon- dioxide;

6

Petitioner, who was invited to LBNL for a
research seminar on August 30, 2013, learned about
the use of Respondent’s contaminated data and
reported to the concerned department head at LBNL
that their carbon dioxide sequestration research
calculations were likely affected by contamination.
Petitioner was then asked by LBNL research
integrity officer to file a formal written complaint.
Both Respondent and LBNL were mandated under
48 C.F.R. §952.235-71, clause (a), incorporated into
its contract with Department of Energy, to prevent
research misconduct and to maintain integrity of
research performed at LBNL. The DOE regulatory
framework in turn applied the federal research
misconduct regulation, verbatim, to all DOE
contractors including LBNL.
On September 25, 2013 Petitioner stated the
basis for his assertion of contamination in
Respondent’s data along with the scientific evidence
from newly published peer reviewed articles and
laboratory analytical results showing contamination.
Since Respondent knew of the contamination and yet
did not admit it, leading the lay scientific reader to
believe that his data were really true, the conduct
amounted to falsification under the federal research
misconduct regulation which applied to LBNL.
Similarly, Respondent’s statement in the article,
that remaining samples were uncontaminated,
amounted to fabrication as the remaining samples
were never tested in light of the known
contamination. Petitioner informed LBNL research
integrity officer that its scientists were actually
using the contaminated data.

7

However, the LBNL research integrity officer
summarily dismissed that complaint and refused to
even conduct an inquiry let alone investigate it.
Under 48 C.F.R. §952.235-71 clause (d)(2) an inquiry
is to be conducted by a subject matter expert with no
unresolved conflict of interest. The LBNL officer
declined to follow federal regulations by stating that
the alleged research misconduct was not within their
jurisdiction and that it had been investigated by
Respondent’s previous institution, Tulsa University
(TU). The LBNL research integrity officer stated the
decision in a letter addressed to Petitioner on
October 2, 2013.
In addition, the research integrity officer
broke the confidentiality clause 48 C.F.R. §952.23571 (d)(4) under the federal regulation and copied the
letter rejecting inquiry to Respondent thereby
releasing Petitioner’s confidential report to
Respondent.
Soon after learning of Petitioner’s report to
LBNL, Respondent filed a lawsuit in the Superior
Court of California in Alameda County where LBNL
was situated and alleged defamation, intentional
infliction of emotional distress (IIED) and
Respondent added claims from
negligence.
Petitioner’s supervisory role on the same issue of
research misconduct that took place in Oklahoma
under the normal course of employment at TU. On
March 28, 2014 Respondent amended the complaint.

8

A.
PETITIONER’S ANTISLAPP MOTION
AND DISPOSITION.
Petitioner filed a motion to strike by invoking
his First Amendment rights to petition the
government funded lab on a matter of public interest
and concerning publications by a limited purpose
public figure. Petitioner submitted declaration of the
key witness and collaborating scientist from TU, Dr.
Winton Cornell, who is a geochemistry professor
with at least thirty years of analytical lab
experience, describing the details of the laboratory
analytical
tests
showing
contamination
of
Respondent’s samples. Petitioner also submitted his
own declaration and the several journal articles that
criticized Respondent’s article as not reproducible.
Respondent stated, to court that the issues
were investigated under TU’s research misconduct
policy. But TU could not have conducted any
investigation into lack of research integrity in
LBNL’s research work due to Respondent’s
contaminated data or considered the newly
published
scientific
articles
showing
non­
reproducibility of Respondents data.5

5

Petitioner, in his post-trial motion to vacate, which is
described later in this petition, attached an affidavit from a
former federal research fraud investigator. The investigator
reviewed the trial record and the deposition transcripts to
conclude that research misconduct was never actually
investigated by TU. The fraud investigator also concluded that
no inquiry or investigatory committee was formed and the
scientific report from key witness Dr. Winton Cornell was never
considered.

9

The trial court denied Petitioner’s motion to
strike on September 4, 2014 (See 46a) and the Court
of Appeal affirmed it on October 9, 2015. The Court
of Appeal rejected notice of federal regulations and
held that climate change “research” was not of public
interest and that Respondent was not a limited
purpose public figure (See 27a to 32a). It then denied
the application of common interest or conditional
privileges. Finally, it held that Petitioner’s scientific
evidence could not prove that the allegations of
scientific misconduct were substantially true. The
Court of Appeal and the trial court materially relied
upon the wrong factual assertions by Respondent
that the research misconduct issues were previously
investigated.
The case law in California today is exactly the
opposite of what the Congress intended the federal
research misconduct regulation to provide the public
with: to promote trust of the public in the veracity of
scientific research.6 In a diametrically opposite
position, the California Supreme Court held, based
on the opinion denying Petitioner’s motion to strike,
. that scientific research misconduct is not of public
interest (See FilmOn.com Inc. v. DoubleVerify Inc., 7
Cal. 5th 133 (Cal. Sup. Court 2019) citing to Bikkina
v. Mahadevan, 241 Cal. App. 4th 70 (2014) holding
6

The federal research misconduct policy states in its
reply to comments from public that “[s]ustained public trust in
the research enterprise [r]equires confidence in the research
record and in the processes involved in its ongoing
development.” Federal Register: December 6, 2000 (Volume 65,
Number 235). See page 76260 under section “Supplementary
Information.”

10

“defendant's speech was "about falsified data and
plagiarism in two scientific papers, not about global
warming"”).7
B.
PROCESS OF TRIAL AND SUBJECT
MATTER JURISDICTION.
The ultimate issues of the case of falsification,
fabrication and plagiarism in scientific journals, that
fell within the federal research misconduct
regulations, were then subject to a jury trial between
January 23, 2018 and February 9, 2018. The jury
were not instructed on federal regulatory or
statutory scheme. The issues were not even defined
to the jury in the instructions or otherwise.
In addition, Petitioner’s request for special
instructions to determine whether Petitioner’s
speech, on the issue of scientific misconduct in
climate change mitigation research, was a matter of
7

In a separate action Respondent published a second
article containing Petitioner’s original technical work and
attributed it, without credit, to himself and a researcher
outside the United States who had no contribution. This issue,
of plagiarism, constitutes copyright infringement under the
copyright laws as the published work is a written work of
authorship. This publication was made online on September 21,
2011 after Plaintiff objected to publication, in June 03, 2011 by
refusing to sign any agreement to transfer rights to publish his
original work of authorship, ideas, methods and processes. See
Bikkina, P.K., Shoham, O. and Uppaluri, R., 2011, Equilibrated
Interfacial Tension Data of the C02-Water System at High
Pressures and Moderate Temperatures, Journal of Chemical
and Engineering Data, 56 (10), 3725-3733. This paper and
dates of publication can be accessed online from
http://pubs.acs.org/doi/abs/10.1021/je200302h.

11

public concern was rejected by the trial court based
on the previous Court of Appeal opinion even though
that opinion should not have determined the law of
the trial (See 20a). Consequently, the jury never
even attempted to determine whether Petitioner had
rights under the First Amendment of the
Constitution of the United States.
The jury erroneously found that Petitioner
was liable for defamation for “failing to use
reasonable care to determine the truth or falsity” of
the allegations of research misconduct, that those
allegations of falsification of scientific research were
not true and awarded nearly a million dollars in
damages. In addition, jury found “malice, oppression
or fraud,” with malice defined as “intent to cause
injury” with “knowing disregard of the safety and
rights of another.”
Because there was no investigation of
research misconduct, by any agency TU or LBNL,
the jurors substituted as fact finders of research
misconduct but without any instruction of the
relevant definitions or consideration of the federal
regulatory scheme or even possessing any subject
matter expertise.
The trial of facts of research misconduct,
under common law tort of defamation, was at odds
with the federal law and regulation on the same
issues^ it contradicted the burden of proof required to
prove those same issues which only required
preponderance of evidence under the federal law and
regulation; it contradicted the federal law and
regulation on admissibility of evidence and in the
selection of persons competent to determine the
same facts; and it contradicted evidence required
12

under federal law and regulation required to show
good faith.
Petitioner actually met his burden at trial, by
preponderance of evidence, to show that his
statements were made in good faith.8
But
Respondent didn’t carry any burden, not even with
contrary scientific evidence, apart from a mere
denial. Further, the state defamation law required
Petitioner to meet a much higher bar of substantial
truth of the statement made in his complaint.
The trial court proceedings were further
marred by Respondent’s discovery misconduct,
witness and evidence suppression.9 The trial court
allowed video testimonies, which were not noticed, of
as many as five TU officials lasting a full week of

8

Neutral subject matter experts in the science, one of
whom is a well-known surface scientist, Dr. Seth Miller, that
graduated from California Institute of Technology (CalTech)
and the other being a professor of chemistry, Prof. Roger
Terrill, at a well-known California university, testified that all
of Respondent’s data were false and that Respondent’s data
were found non-reproducible by peer articles that specifically
tried to do so. Respondent also knew that his data were all false
before the pubhcation and was in fact advised of it on record.
Respondent presented no contrary scientific evidence except for
a denial that he did not falsify. The trial court strictly ruled
that the fact finding of falsification, not just falsity of data, was
the domain of the jury and barred the experts from weighing on
those ultimate issues.
9

Dr. Winton Cornell was directed by a powerful TU
official to not testify in California or even depose in Oklahoma.
Then Respondent moved to exclude the contradictory scientific
data, contained in Dr. Cornell’s prior court declaration, from
jury’s review.

13

video replays without a chance to cross-examine
them in front of the jury. These TU officials, who
admitted they were not subject matter experts but
were
administrators,
offered
inflammatory
statements and offered cumulative testimony that
the issue of scientific misconduct was investigated
under their ethical conduct policy when in fact there
was not even an inquiry committee formed under
that policy with any scientific experts.
The trial court’s decision to allow video replay
for such a long time of the trial cost Petitioner the
trial because he could not make any objections or
expose the lack of investigation to the jury. Thus the
jury decided solely based on the false evidence that
TU investigated the alleged scientific research
misconduct when in fact no such investigation or
even inquiry took place.
In addition, Respondent’s IIED and negligence
claims arose from Petitioner’s workplace supervisory
role in Oklahoma on the same issue of scientific
research misconduct. But these claims were non­
exempt from workers compensation laws of
Oklahoma. The trial of these non-exempt claims
under the California common law court deprived
Petitioner his rights to immunity from intentional
torts from supervisory actions during normal course
of employment at TU.
After the jury trial, on February 9, 2018,
sensing that serious and prejudicial errors were
made during trial, Respondent opportunistically
solicited from Petitioner’s trial counsel and obtained
a stipulation to waive Petitioner’s right to appeal the
merits of judgment without giving notice to
Petitioner or obtaining consent from Petitioner.
14

Petitioner was not given the opportunity to object to
that stipulation by the trial court which simply
entered the stipulation without any Due Process of
law.
Financial stress led Petitioner to file a
bankruptcy petition in the Southern District of
Texas on February 15, 2018. But the trial court went
ahead and entered stipulated judgment on the same
day after the bankruptcy filing was made in Texas.
The trial court also added costs of $64,256.88.
On July 24, 2018, Petitioner timely filed a
notice of motion to vacate the stipulation, judgment
and the verdict. Petitioner in his motion argued that
the trial court completely lacked subject matter
jurisdiction over the entire case as it was preempted
by federal regulatory and statutory scheme on
research misconduct. As a secondary threshold, that
stripped the trial court from fundamental subject
matter jurisdiction, Petitioner stated that Oklahoma
workers laws governed the entirety of Respondent’s
claims from Oklahoma as Respondent was
coemployed with Petitioner.
Even after notification of the motion to vacate,
the trial court entered an ex parte stipulated
judgment on August 1, 2018 without any Due
Process of law in forcibly removing Petitioner’s right
to appeal. Petitioner had no opportunity to object
and deny consent to the stipulation waiving his
appeal at any point in time.
On January 8, 2019 the trial court denied the
motion to vacate (See 18a). Petitioner timely filed an
appeal to the California Court of Appeals First
District Division Four.

15

C.
COURT OF APPEAL OPINION AND
CALIFORNIA SUPREME COURT PETITION
FOR REVIEW.
The Court of Appeal affirmed the trial court’s
order denying Petitioner’s motion to vacate in an
unpublished opinion on January 14, 2020 (See la).
On the issue of right to appeal the merits of trial, the
Court of Appeal erroneously affirmed the trial
court’s summary entry of unauthorized stipulation
without a hearing or determination by trial of the
facts.
On the issue of subject matter jurisdiction
concerning the trial of scientific research misconduct
issues, the Court of Appeal held that the federal
regulation governing scientific research misconduct
did not state anywhere that the state courts were
divested of jurisdiction on an inextricably linked
common law claim. It then rejected Petitioner’s
request for judicial notice of the extensive federal
regulations (See 12a).
Interestingly, the Court of Appeal completely
skipped referring to Respondent’s employment with
LBNL and the research misconduct at LBNL even
though it had done so in its previous published
opinion (See la and contrast with 21a*22a). Based on
this factual omission, the Court of Appeal rejected
Plaintiffs request for judicial notice of the federal
regulatory and statutory scheme.
Further
implicating
subject
matter
jurisdiction of the trial court, the Court of Appeal
rejected full faith and credit to Petitioner’s
immunities under Oklahoma workers compensation
statutes that completely barred Respondent’s
16

intentional tort claims under negligence and IIED
causes.
The Court of Appeal, after a rehearing
petition pointing to new evidence, issued a
modification
on
February
11,
2020
and
acknowledged that Petitioner demonstrated evidence
showing that there was never an investigation of
research misconduct. However, the Court of Appeal
refused to address the lack of subject matter
jurisdiction on
account of the incomplete
administrative process of investigation of scientific
research misconduct.
Petitioner raised the issue of trial court’s
complete lack of fundamental subject matter
jurisdiction in his petition for review to the
California Supreme Court. On March 11, 2020, the
California Supreme Court denied the petition
without a review. The discretionary decision left the
Court of Appeal opinion as the final opinion and
decision of the highest court in the state.
REASONS THE PETITION SHOULD BE
GRANTED
The federal research misconduct regulation is
unique in that it requires, or even invites, speech or
statement which makes the complainant a ripe
target for defamation suits. This is clear from the
numerous cases within the relatively short legal
history of 20 years since the publication of the
federal research misconduct policy and regulation.
Because of the nature of the federal research
misconduct regulation and policy inviting speech,
and because of the nationwide reach of the federal
17

research misconduct regulations, reaching millions
of researchers, state law defamation suits arising
from allegations of research misconduct are bound to
recur. This Court’s review is critically and urgently
needed to ensure national uniformity in the
application
of federal
research
misconduct
regulations and establish federal preemption of state
law to ensure complainants under those regulations
are ensured of Due Process and Equal Protections
under law.
California case law, arising from this case,
sets the wrong precedent with its holding that
research misconduct is not of public interest. This
leads to irreconcilable conflict with federal research
misconduct regulations and also sends a chilling
message to complainants who will now never make
research misconduct allegations for fear of massive
and disproportionate state law prosecution to which
there exists no defense in the absence of the
investigation of such a complaint.
Complainants,
like
Petitioner,
deserve
protections under the First Amendment. However
state law privileges and protection of the right to
free speech or to petition are highly variable and not
uniform as this case demonstrates. This Court’s
grant of certiorari is critically needed to identify and
spell a rule of law that grants adequate protections
to complainants of scientific research misconduct
from massive tort liability.

18

A.
FEDERAL LAW PREEMPTED STATE
COURT.
Under 48 C.F.R. §952.235-71 clause (b) LBNL
was required to conduct at least an inquiry which it
refused to comply with. See relevant portion of that
section below.
Unless otherwise instructed by the
Contracting Officer, the Contractor
must conduct an initial inquiry into
any allegation of research misconduct.
LBNL neither conducted an inquiry or
investigation. Under 48 C.F.R. §952.235-71 clause
(d) (1)
LBNL must provide safeguards for
complainants who bring complaints in good faith,
which
has
been
interpreted
by
federal
administrative law courts to mean that the
complaint was made with a reasonable belief that
the elements of the complaint are true.
Petitioner
more
than
satisfied
that
requirement by showing that 1) uncontroverted
laboratory analytical data from key witness Dr.
Winton Cornell revealed unadmitted contamination,
2)
several journal articles explicitly tried
reproducing Respondent’s data and could not do so,
3) statements from neutral experts who confirm that
all of Respondent’s data are false, 4) that
Respondent was advised of falsity of data prior to the
publication, 5) that the dispute was initially subject
to an inquiry that was never completed and never
investigated and finally 6) that LBNL research was
affected by Respondent’s contaminated data which
used the contaminated data to make predictions for

19

storage of immense quantities of carbon dioxide in
real field projects in various parts of the USA.
Here LBNL was obligated under federal law
to inquire or investigate the complaint of research
misconduct. Respondent, by virtue of being an
employee of LBNL was enjoined by federal law to
subject his research to inquiry and investigation
under federal law. Inquiry which is defined in 48
C.F.R. §952.235-71 is initial fact finding involving
gathering information of LBNL research record
affected by Respondent’s contaminated data.
In Anversa v. Partners Healthcare System,
Inc., 835 F.3d 167 (1st Cir. 2016) the First Circuit
held that defamation claim from the complaint of
research misconduct under the federal misconduct
policy is both statutorily and administratively
preempted by federal regulations that require the
agency to complete its investigation into the
complaint.
In a recent federal case that presents issues
nearly identical to the issues as this case, i.e. a
defamation complaint arising from allegation of
research misconduct, the federal district court ruled
that if investigation is incomplete then the principle
of Anversa applies. See Medici v. Lifespan Corp., 239
F.Supp.3d 355 (D. Mass. 2017).
A federal court of law recognizing the federal
regulatory procedures can find that the subject
matter jurisdiction is lacking, without the
completion of investigation, as the First Circuit did
in Anversa. The ultimate issues of this case of
scientific misconduct were not investigated by either
LBNL or TU. The Court of Appeal acknowledged
that Petitioner demonstrated evidence that the
20

investigation of research misconduct was incomplete
but never inquired into the effect of that conflict on
its own jurisdiction to try the subject matter (See la2a).10
The principle that common law courts are
preempted from adjudicating research misconduct
disputes has been accepted by courts. The Seventh
Circuit held that courts do not have subject matter
jurisdiction over fact finding of scientific disputes
{See Underwager v. Salter, 22 F.3d 730 (7th Cir.
1994), “Scientific controversies must be settled by
the methods of science rather than by the methods of
litigation. Cf. Buckley v. Fitzsimmons, 20 F.3d 789,
796-97 (7th Cir. 1994). More papers, more discussion,
better data, and more satisfactory models—not
larger awards of damages—mark the path toward
superior understanding of the world around us”).
The fact finding of whether a scientific
publication is falsified is necessarily a scientific
exercise in itself which requires research, forensic
evidence of unreported laboratory data, counter
evidence in peer literature and evaluation of best
practices by scientific experts in conjunction with the
data, all of which cannot be implemented in a
common law court by a jury. It is therefore an
anomalous result that Respondent’s article is not
found falsified and fabricated by jury when the

10

The admitted evidentiary record includes a statement
from a TU official that the allegations of research misconduct
were serious enough for a decision to conduct inquiry. But TU
never progressed beyond that decision and there was no inquiry
or investigation.

21

scientific evidence, considered under the federal
research misconduct regulation, shows otherwise.
The California Court of Appeal squarely
contradicted the First Circuit in Anversa and the
Seventh Circuit in Underwager. The Court of Appeal
rejected notice of federal regulations and erroneously
held that federal regulations and policy do not
explicitly state anywhere that state law is divested
from subject matter jurisdiction (See 12a). But there
is no presumption of jurisdiction of state courts in
the subject of research misconduct. To take the
subject matter outside the federal jurisdiction
requires explicit authorization from Congress. .See
United States Supreme Court decision Schneidewind
v. ANR Pipeline Co., 485 U.S. 293 (1988) (“in the
absence of explicit statutory language, state law is
preempted from jurisdiction in a field that Congress
intended the Federal Government to occupy
exclusively”).
Similar to the exception to well pleaded
complaint rule of copyright laws, the implied
Congressional intent in the federal research
misconduct regulations create exclusive federal
jurisdiction. Thus the trial of the federal issues of
research misconduct, to which the state law claim is
inextricably linked to and solely dependent on, was
held without subject matter jurisdiction and was
preempted by federal laws.
In fact, copyright infringement, which is
equivalent to plagiarism in this case due to written
publications, is a common element of both copyright
laws and the scientific research misconduct
regulations. The trial of plagiarism which was an
ultimate issue of this case was completely preempted
22

by federal copyright laws under 17 U.S.C. §101 et
seq. See Ritchie v. Williams, 395 F.3d 283 (6th Cir.
2005) (holding that any state common law tort
involving publishing rights is removable to federal
court under complete preemption doctrine of the
Copyright Act even if the complaint does not state
federal basis of jurisdiction, but presents significant
federal issues).
This entire case belonged in the federal court
under 28 U.S.C. §1331. "A case 'aristes] under’
federal law within the meaning of §1331 if 'a wellpleaded complaint establishes either that federal law
creates the cause of action or that the plaintiffs
right to relief necessarily depends on resolution of a
substantial question of federal law.’" Empire
Healthchoice Assur., Inc. v. McVeigh, 547 U.S. 677,
689-90 (2006) (quoting Franchise Tax Bd. Of Cal. v.
Construction Laborers Vacation Trust for Southern
Cal., 463 U.S. 1, 27-28 (1983)).
This Court, held in Gunn v. Minton, 568 U.S.
251 (2013), citing to Grable & Sons Metal Prod., Inc.
v. Darue Eng’g & Mfg., 545 U.S. 308 (2005), that
“[flederal jurisdiction over a state law claim will lie if
a federal issue is: (l) necessarily raised, (2) actually
disputed, (3) substantial, and (4) capable of
resolution in federal court without disrupting the
federal-state balance approved by Congress.” Gunn,
568 U.S. at 259.
The issues in this case met all four of the
above criteria especially because Respondent filed
his state law suit in California for Petitioner’s speech
which arose as a complaint under 48 C.F.R.
§952.235-71 which in turn is governed by the federal
research misconduct policy. All of Respondent’s
23

causes, including the IIED and negligence causes,
were based on speech arising as a complaint under
the federal research misconduct regulation. Thus the
verdict and judgment read much like a declaration
that Respondent did not commit research
misconduct and did not plagiarize whereas that
declaratory authority solely belonged under federal
administrative law courts or federal district courts.
Respondent could have brought all his claims
in a federal court where the federal regulations,
central to this case, would have been noticed and the
federal issues pertaining to investigation by LBNL
could have been resolved first.
Gunn concerned a common law malpractice
claim, which the appellant’s attorney failed to
properly raise a federal patent issue before the court,
which had no relationship to the federal patent issue
itself and did not depend on the resolution of the
patent issue. However here, in this case, the common
law claims cannot be born at all without the
resolution of the federal issues. The common law
issues are predicated solely upon the federal issues
being resolved, one way or the other, under the
federal statutory and regulatory scheme for research
misconduct.
In Anversa the First Circuit cited to this
Court in Sinochem Intern, v. Malaysia Intern.
Shipping, 549 U.S. 422 (2007) to justify its holding
that the administrative exhaustion doctrine, a lower
non-jurisdictional threshold, was sufficient to
displace the state law claims. First Circuit stated
that it did not need to reach the complex and
uncertain issue of explicit federal law preemption
even though it held that it applied. See Anversa at
24

835 F.3d at 175. The First Circuit held so because,
unlike in this case, the administrative agency
complied with the federal regulations to initiate an
inquiry and investigation and had not exhausted its
process. It held that administrative exhaustion was
sufficient to displace the district court’s subject
matter jurisdiction citing to this Court in Thunder
Basin Coal Co. v. Reich, 510 U.S. 200, 207 (1994).
However, as this case demonstrates,
administrative exhaustion alone cannot be the basis
for displacement of subject matter jurisdiction as
that places the critical jurisdictional question in the
hands of the officer of the administrative agency who
can act whimsically or even not comply with federal
laws.
Scientific research misconduct is an issue of
public and national interest over which state law
completely lacks expertise, severely lacks notice of
the vast federal statutory and regulatory scheme,
and directly conflicts with federal courts.
This Court is requested to grant review to
establish the administrative exhaustion principle to
federal research misconduct investigation and
further affirm the explicit federal preemption of
state courts in the regulation of scientific research
misconduct by inextricably finked state law claims.

25

B.
STATE COURT CHILLS FREE
SPEECH AND CONFLICTS WITH
FEDERAL COURTS.

I.

Scientific Research Misconduct is
of Public Interest and Resolve
Conflict: State and Federal
Courts Conflict.

Congress has recognized the integrity of
scientific research to be of public interest, in the
federal research misconduct policy issued in 2000,
created through National Science and Technology
Policy, Organization, and Priorities Act of 1976.11
Thus a defendant’s speech on issues of scientific
research misconduct,
especially in journal
publications made by limited purpose public figures,
should be protected by Constitution.
But First Amendment protection is absent in
practice for the simple reason that research
misconduct defendants necessarily make statements,
that they believe to be factual, based on
li

“While much is at stake for a researcher accused of
research misconduct, even more is at stake for the public when
a
researcher
commits
research
misconduct.
Since
"preponderance of the evidence" is the uniform standard of
proof for establishing culpability in most civil fraud cases and
many federal administrative proceedings, including debarment,
there is no basis for raising the bar for proof in misconduct
cases which have such a potentially broad public impact.”
Federal Register: December 6, 2000 (Volume 65, Number 235).
Emphasis added. See page 76262, answer to public question on
burden of proof for scientific research misconduct in the first
column.

26

contradictory scientific data. At issue is the
recognition required of courts that an allegation of
scientific misconduct under the federal regulation,
while defamatory on the face, is an opinion based on
scientific facts.
Federal circuit courts have interpreted the
case law, in Milkovich v. Lorain Journal Co., 497
U.S. 1 (1990), and have routinely held that
statements alleging or imputing misconduct made in
the context of scientific publications are usually read
as opinions expressed as a fact when they are made
with factual basis.
The Second Circuit, for instance, held that an
allegedly false statement made in a published article
was not defamatory even though the statement is
published as a scientific fact (See Ony, Inc. v.
Cornerstone Therapeutics, Inc., 720 F.3d 490 (2d
Cir. 2013), “It is clear to us, however, that while
statements about contested and contestable
scientific hypotheses constitute assertions about the
world that are in principle matters of verifiable
"fact," for purposes of the First Amendment and the
laws relating to fair competition and defamation,
they are more closely akin to matters of opinion, and
are so understood by the relevant scientific
communities.” Emphasis added.).
The Seventh Circuit held that the record
suggested that the scholars clearly knew their
subject and the record did not suggest otherwise to
hold them liable for publishing false statements in
reckless disregard of the probability of injury thus
overcoming the actual malice bar. The Underwager
scholar defendants state “[i]n defense of their
judgment [of dismissal], that the undisputed facts
27

show that [their] statements are actually true,
making their states of mind (and the care that
preceded their statements) irrelevant.”
Likewise, in this case, Petitioner knew the
subject matter and researched the peer articles that
could not reproduce Respondent’s data. Petitioner
supported his assertions with data from fellow
scientist that tested the samples for contamination
and only then reported scientific research
misconduct. These beliefs of Petitioner were further
confirmed by neutral expert witnesses at trial who
uniformly testified that all of Respondent’s data
were contaminated and false. Finally Petitioner
supplied evidence that the research misconduct
allegations were never investigated by any
institution.
On the issue of plagiarism, Petitioner stated
his work of authorship was used by Respondent in
articles without his consent and notification and
there was copying. The Court of Appeal
acknowledged that the act of copying was in fact
tried as an inextricably linked issue to the alleged
plagiarism in Petitioner’s administrative complaint
to redress copyright infringement (See 13a). The
trial of the facts of copying properly belonged in the
federal courts under 17 U.S.C. §101 et seq.
In Phantom Touring, Inc. v. Affiliated
Publications, 953 F.2d 724 (1st Circuit 1992) the
First Circuit held that “[a]s long as the author
presents the factual basis for his statement, i[t] can
only be read as his "personal conclusion about the
information presented, not as a statement of fact." In
Chapin v. KnighfRidder, Inc., 993 F.2d 1087 (4th
Cir. 1993), Fourth Circuit noted that "[b]ecause the
28

bases for the ... conclusion are fully disclosed, no
reasonable reader would consider the term anything
' but the opinion of the author drawn from the
circumstances related." Chapin, 993 F.2d at 1087.
In Lott v. Levitt, 556 F.3d 564 (7th Cir. 2009),
the Seventh Circuit court held that a defendant’s
assertion in a publication that plaintiffs results
were not replicable, imputing that plaintiff
published falsified data thereby inviting a
defamation lawsuit, was only an attack on the ideas
proposed by the plaintiff and not on the plaintiff
himself and dismissed the plaint.
The Seventh Circuit has routinely held that
scholarly publications by authors in subjects of
public importance automatically makes them limited
purpose public figures (“We have concluded,
however, that [plaintiffs] are not private persons;
when talk turns to child abuse, they are public
figures. Cases since [Denny] have made it clear that
a public figure must establish that the defendant
acted with actual malice.”). Therefore, the circuit
court held that the Underwager plaintiffs had to
meet the New York Times Co. v. Sullivan, 376 U.S.
254 (1964) actual malice standard to claim damages
from defamation. See also Dilworth v. Dudley, 75
F.3d 307 (7th Cir. 1996).
Likewise, Respondent in this case is a limited
purpose public figure who injected himself into a
controversy about climate change mitigation by
publishing a paper that kicked up a storm of peer
reviewed articles unsuccessfully trying to reproduce
his results. In addition Respondent claims his
results has impacts on safety of millions of people,
animals and entire ecosystems. In any case,
29

1^,

Congress, in its federal research misconduct policy
has held that scientific research integrity in itself is
an issue of public interest.
Thus the subject matter of climate change
mitigation research, on which Respondent published
his articles, was of public interest. Respondent had
to prove actual malice under New York Times Co. v.
Sullivan, 376 U.S. 254 (1964) standard.
Some circuit courts have applied the state law
construct of qualified and common interest privileges
to allegations of scientific research misconduct. In an
exact replay of the facts of this case, in Chandok v.
Klessig, 632 F.3d 803 (2011), the defendant, after
finding that the plaintiffs results were not
reproducible, published assertions of scientific
research misconduct to more than half a dozen
individuals, filed a research misconduct complaint
and discussed with scientists at another university.
In its analysis, the Second Circuit considered
that the defendant’s allegations of scientific
misconduct were supported by peer articles that
could not reproduce the plaintiffs results even
though the completed investigation concluded that
research misconduct was not proven. While the
Second Circuit did not reach First Amendment
protections it discussed with willingness to apply the
standard. Id at 814. In particular the Second Circuit
held that the New York state common interest
privilege and the qualified privilege could not be
overcome without showing that spite and ill-will is
the “sole cause” for the publication, /t/at 818.
But state law and its application varies from
state to state resulting in non-uniform protections
under privileges as this case shows. In this case, the
30

trial court denied both common interest privilege
and the condition privilege under California law
before trial and the jury was not instructed on it (See
37a-40a).
In every one of the cases considered by First,
Second and the Seventh Circuit, related to
defamation arising from complaints of scientific
research misconduct, the litigants were known to
each other and had personal knowledge of the
controversy and about each other either through
coemployment in the same university or research
group. Yet, that did not come in the way of the
courts from extending the First Amendment
protection and requiring the New York Times Co. v.
Sullivan, 376 U.S. 254 (1964) actual malice standard
by either considering the plaintiffs to be limited
purpose public figures or in addition that the subject
matter was also of public interest or that the
defendant’s
speech were
opinions
following
Milkovich v. Lorain Journal Co., 497 U.S. 1 (1990).
Perhaps ironically to this case, the Ninth
Circuit sitting in California, applied California’s own
anti'SLAPP statute to extend First Amendment
protection to a scholar whose allegedly defamatory
speech in an interview imputed falsity in claims
related to a medicinal pill manufacturer’s product
(See Metabolife Intern., Inc. v. Wornick, 264 F.3d
832 (9th Cir. 2001), citing to this Court’s opinion in
Bose Corp. v. Consumers Union of United States,
Inc., 466 U.S. 485 (1984) and hold that ““[i]f the First
Amendment provides heightened protection for
rational comment on stereo speakers, it should also
protect scientific comment on issues as important as
public health.””).
31

In the instant case, the trial court, even
though it was prohibited, dutifully followed the law
of the case established by the Court of Appeal in
2015, denied privileges, rejected Petitioner’s First
Amendment protections and went through a trial
when it completely lacked subject matter
jurisdiction. Even at trial, the court imposed a much
higher standard of substantial truth than the
preponderance of evidence standard is required
under federal regulations, which burden Petitioner
actually met.
In this, the California Court of Appeals joins
other state courts such as the Illinois Court of
Appeals in Mauvais-Jarvis v. Wong, 987 NE 2d 864
(Ill. Ct. of App. 2013) (holding that there exists no
duty to report scientific research misconduct under
the federal regulatory scheme and that there exists
no absolute privileges or First Amendment
protection to such reporting), the Maryland Court of
Appeals in Arroyo v. Rosen, 102 Md. App. 101 (Md.
Ct. of App. 1994) (holding that statements made in a
research misconduct complaint under federal
regulations is not absolutely protected; see also
authorities cited therein), the D.C. Court of Appeals
in Competitive Enterprise Institute v. Mann, 150
A.3d 1213 (DC. Ct. of App. 2016) (holding that
scientific research misconduct allegation by a news
publishing house is not protected and subject to jury
trial on fact of whether scientific research
misconduct took place) and the Michigan Court of
Appeals in Sarkar v. Doe, 897 NW 2d 207 (Mich. Ct.
of App. 2016) (holding that submission of a flyer to
university authorities from a scientific peer review

32

website containing comments alleging research
misconduct is actionable as defamation).
As this Court held in New York Times Co. v.
Sullivan, 376 U.S. 254 (1964) it is well-nigh
impossible for scientific research misconduct
defendants to prove the substantial truth of their
research misconduct allegations to a jury. This is so
because the very objective of the allegation, to
initiate an investigation, if it remains incomplete
cannot provide the requisite evidence to the
defendant that is required to prove his case.
This Court’s review is critically needed to
address the lack of First Amendment protection of
the right to petition and right to free speech about
scientific research misconduct in publications
published by limited purpose public figures on issues
of public concern and interest such as climate change
mitigation or carbon dioxide sequestration to
mitigate climate change as applied to this case.
Denial of First Amendment protections and
then trial of the ultimate issues without subject
matter jurisdiction denied Petitioner the Due
Process of law under the Fourteenth Amendment.
This Court , must grant review to resolve the
widening chasm and deepening conflict between
state courts and federal circuits in extending First
Amendment protection to allegations made
concerning scientific research integrity which are
inherently expressed as facts but are really opinions,
in the eyes of law, relying on scientific data and
facts.

33

II.

State Court Violates Article IV,
Rejecting
Petitioner’s
by
Immunities, and Flouts This
Courts Holding in Awarding Tort
Damages.

This Court held in Hustler Magazine, Inc. v.
Falwell, 485 U.S. 46 (1988) that there can be no
award for IIED damages when speech is protected by
First Amendment. Even though, in this case, jury
never decided Plaintiffs rights under First
Amendment, federal courts have applied those
protections under similar circumstances as argued in
the previous section. The damages awarded to
Respondent can therefore be struck under Hustler.
In addition, Respondent’s IIED and negligence
claims were based on the same issues of research
misconduct and were superfluous to the defamation
claims occurring at workplace in TU in Oklahoma
when Respondent and Petitioner were coemployed.
The Court of Appeal acknowledged this fact in its
opinion but considered the defense of lack of subject
matter jurisdiction as waived (See 3a).
Petitioner, who was an academic and
graduate advisor at TU, had a moral, professional
and ethical duty enjoined upon him by virtue of his
position to report Respondent’s research misconduct
within the channels available for such reporting.
Petitioner’s actions arising from normal
course of employment, including complaints, in the
university are further protected by the Oklahoma
Workers Compensation Act. There were no public
policy or statutory exemptions applicable under

34

either the California workers laws or Oklahoma
workers laws.
But the Court of Appeal arbitrarily rejected
full faith and credit to Oklahoma immunity
provisions, under Article IV §1 and §2, that barred
tort claims arising from workplace conduct arising
from the duties enjoining Petitioner at work in
Oklahoma.
The case here presents an example of hostility
to the public Act of another state. Unlike the fact
situation of Carroll v. Lanza, 349 U.S. 408 (1955)
where the injury that occurred in a forum state, here
the alleged injury claimed, under IIED and
negligence causes, happened in Oklahoma and the
forum state of California neither applied its own rule
of decision nor gave full faith and credit to the
Oklahoma statutes where the alleged injury
happened. See Franchise Tax Bd. of Cal. v. Hyatt,
538 U.S. 488 (2003) (holding that Full Faith and
Credit Clause required Nevada courts to grant the
Board the same immunity that Nevada agencies
enjoyted]).
In Phillips Petroleum Co. v. Shutts, 472 U.S.
797 (1985) this Court held that “[wlhile a State may
D assume jurisdiction over the claims of plaintiffs
whose principal contacts are with other States, it
may not use this assumption of jurisdiction as an
added weight in the scale when considering the
permissible constitutional limits on choice of
substantive law.”
Likewise, in the instant case the California
Court’s assumption of subject matter jurisdiction
over Oklahoma workplace claims, even though it
may have had personal jurisdiction over parties,
35

requires an independent evaluation of the choice of
law that comports with the constitutional limits of
Due Process.
In the jury’s findings, the trial of barred
workplace claims played no less part and the trial
itself was absolutely unfair as . described in the
statement of facts section.
COURT OF APPEAL HOLDING ON
C.
MINISTERIAL ACTION EXCEPTION TO
DENY PETITIONER’S APPEAL CONFLICTS
WITH FEDERAL COURTS AND DENIES
DUE PROCESS.
Denial of Petitioner’s right to appeal the
merits of the judgment, during the pendency of a
bankruptcy stay order citing to ministerial
exception, caused deprivation of Petitioner’s right to
Due Process and denial of Equal Protection rights
under Fourteenth Amendment.
The appeal of a judgment in California was a
matter of statutory right which was denied to
Petitioner without giving him the opportunity to
deny consent or object to the unauthorized
stipulation. Petitioner was also denied the
opportunity to give evidence of the absence of
stipulation authority in a trial of facts. See Lane v.
Brown, 372 U.S. 477 (1963). See also Pennzoil Co. v.
Texaco Inc., 481 U.S. 1, 22 (1987) (J. Stevens,
concurring) (holding that “[s]ince [the state] has
created an appeal as of right from the trial court's
judgment, it cannot infringe on this right to appeal
in a manner inconsistent with due process or equal
protection”).
36

The California Court of Appeal held that the
verdict completed the decision on merits of the case,
and that the amendment leading to addition of costs
of $64,256.88 and directing entry of stipulated
judgment, waiving right to appeal, was ministerial.
These trial court actions were not ministerial as the
decisions involved discretion that is antithesis of
mechanical action and caused prejudice to Petitioner
(See In re Soares, 107 F.3d 969 (1st Cir. 1997)).
Further, the California Court of Appeal
holding, that trial court action was within the
ministerial exceptions to automatic stay, went well
beyond simply evaluating whether those actions
were ministerial under state law. It decided that the
purportedly ministerial action did not violate the
bankruptcy stay under federal law.
In essence, the trial court and the California
Court of Appeal modified the bankruptcy stay order
nunc pro tunc in violation of the bankruptcy statute
11 U.S.C. §362 (d)(1) which authorizes only the
bankruptcy courts to perform that function
(Maritime Elec. Co., Inc. v. United Jersey Bank, 959
F.2d 1194 (3d Cir. 1991)).
The California Court of Appeal decision
conflicts with nearly all of the federal court
authorities which hold that actions, directing the
entry of judgment, in violation of stay are void and
only the bankruptcy court can provide the
retroactive modification, lift or annulment of the
stay {See In re Schwartz, 954 F.2d.569 (9th Cir. 1992)
and Maritime Elec. Co., Inc. v. United Jersey Bank,
959 F.2d 1194 (3d Cir. 1991)).
The Ninth Circuit, in In re Gruntz, 202 F.3d
1074 (9th Cir. 2000), held that “state courts are
37

allowed to construe the [discharge or stay] in
bankruptcy, but what they are not allowed to do is
construe the [discharge or stay] incorrectly, because
an incorrect application [w]ould be equivalent to a
modification of the [discharge or stay] order.”
Emphasis added.
The Court of Appeal admitted trial court’s
violation of bankruptcy stay order with its
discretionary action, to waive appeal and to add
monies, but cured it erroneously. It applied
ministerial exception to automatic stay by citing a
conflicting opinion of one of the circuit courts to deny
Petitioner’s right to appeal (See 7a, fn3; “This
contention is [irrelevant, as we are not bound by
decisions of the Ninth Circuit or any other lower
federal court, even on matters of federal law.
[citation omitted]”).
CONCLUSION
This Court is requested to grant certiorari to
resolve conflict between state and federal courts in
the displacement of intentional tort claims from
allegation of scientific research misconduct by
federal regulatory and statutory scheme and the
doctrine of administrative exhaustion requiring
investigation of the alleged research misconduct.
Further, this Court should grant review to
resolve conflict between state and federal courts,
wherein state courts have uniformly rejected First
Amendment protection to complainants of scientific
research misconduct, when such a complaint
constitutes an opinion based on scientific facts and

38

when the issue of scientific research misconduct is
held by Congress to be a matter of public interest.
This Court should grant review to decide the
issue not determined by jury, that Petitioner’s
speech was protected by First Amendment, and void
the damages awarded to Respondent, as prohibited
under Hustler, as the facts found at trial do not meet
New York Times Co. v. Sullivan standard.
This Court should further grant review to
redress the denial of Petitioner’s Due Process right
to appeal and order the state trial court to reverse
the unauthorized stipulation to allow review of the
merits of judgment.
Dated: July 20, 2020
Respectfully
submitted,

IS/

By: Jagan Mahadevan
3419 Autumn Bend Dr
Sugar Land, TX 77479
Tel: (832)6394456
Jmdept517@gmail.com
Petitioner, In Pro Per

39

